 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




                 Office of the Secretary


        Top Management Challenges
Facing the Department of Commerce
                        Final Report No. OIG-19384
                                    November 2008




         FOR PUBLIC RELEASE



                           Office of Audit and Evaluation
November 18, 2008


MEMORANDUM FOR THE SECRETARY


FROM:               Todd J. Zinser


SUBJECT:            Top Management Challenges Facing the Department

The Office of Inspector General (OIG) is required by statute to annually
report the top management challenges facing the Department of Commerce.
We regularly discuss the Department’s progress in addressing these
challenges in the IG’s Semiannual Report to Congress and the Department’s
Performance and Accountability Report. We prepared this year’s report to
highlight the top management challenges for the incoming leadership at the
Department as part of the Presidential transition.

In our view, there are five critical issues the new Secretary and senior
management team will need to focus immediate and considerable attention
on, and we detail them, as follows, in this report:

1) Overcome the setbacks experienced in reengineering decennial processes,
   and conduct a successful 2010 Census.

2) Better position the Department to address information security risks.

3) Effectively manage the development and acquisition of NOAA’s two
   environmental satellites.

4) Establish a safety culture at NIST.

5) Ensure NTIA effectively carries out its responsibilities under the Digital
   Television Transition and Public Safety Act.
We also discuss several other areas that pose distinct challenges to the
Department’s mission success and will therefore require the Secretary’s
sustained attention:

    •	 Weaknesses in the Department’s acquisition oversight and acquisition
       workforce
    •	 USPTO’s long and growing patent processing times, and its financing
       vulnerabilities
    •	 NOAA’s ability to conserve the nation’s fragile oceans and living
       marine resources while ensuring a vital U.S. commercial fishing
       industry
    •	 BIS’ setbacks in modernizing its obsolete information technology
       infrastructure to strengthen the dual-use export control system

The challenges identified in our report reflect the broad findings of our work
throughout the Department and the observations made by secretarial officers
and heads of operating units during recent discussions with them. Two
recurring themes emerged during these discussions, which serve as useful
background for the new leadership in approaching the top challenges: (1)
leading the Department’s autonomous bureaus, with their entrenched
cultures that resist change, is exceedingly difficult, and (2) Commerce must
deal with substantial infrastructure needs—such as upgrading aging IT
assets and improving IT security—in a constrained budget environment.

Autonomous Bureaus with Entrenched Cultures. The historical mission of
the Department is “to foster, promote, and develop the foreign and domestic
commerce” of the United States. As a result of legislative and administrative
additions, this mission now broadly encompasses the responsibility to foster,
serve, and promote the nation’s economic development and technological
advancement, and the activities of 12 disparate operating units. The
Secretary’s principal focus is on formulating policy and providing advice to
the President on this mission, particularly as it impacts U.S. trade activities
and promotion. But Commerce leadership must also ensure effective
administrative processes (e.g., financial, human resources, procurement,
information technology) Department-wide in order to carry out program
operations.

The Department has been characterized as a holding company of
12 autonomous bureaus, most of which have long-established business
models. The bureaus resist the centralized direction, control, and oversight
needed to ensure that administrative processes are consistently and
effectively applied. This autonomy is a substantial impediment to
departmental efforts to control and improve these processes. Nevertheless,
the Secretary is ultimately responsible for the performance of the
Department as a whole, and needs to be able to effect program and process
improvements and hold the bureaus accountable for their performance. To do
so effectively requires establishing a shared vision among bureau leadership
who in turn must marshal the cooperation of the Department’s career
workforce.

Commerce’s career workforce is knowledgeable, long serving, and dedicated
to the Department’s mission. The countless benefits of having such a
workforce need no explanation. But these characteristics also mire the
bureaus in entrenched cultures that are resistant to change. In this past year
alone, there have been two prime examples in which a bureau’s culture
contributed to significant problems—the failure of Census’s plan to use
handheld computers for nonresponse follow-up in the 2010 decennial census
and the plutonium spill at the National Institute of Standards and
Technology’s Boulder campus.

An overarching challenge for the new Secretary and leadership team will be
to break down the cultural barriers that impede cohesive and effective
Department-wide management.

Infrastructure Needs. The government is operating in an era of constrained
budgets, requiring federal agencies to address critical infrastructure needs,
such as IT security and aging IT systems, with limited existing resources. At
Commerce this practice is quickly becoming unsustainable. The many critical
infrastructure needs of the Department can no longer be funded with existing
resources without significantly impacting essential, mission-related
activities. The Department will have to develop convincing business cases to
obtain the resources to address critical IT security and infrastructure needs
and effectively manage these resources.

We appreciate the courtesies you, the Deputy Secretary, and other secretarial
officers and heads of operating units extended to us during our recent
meetings to discuss the management challenges.

If you have any questions concerning this report, please contact me at
(202) 482-4661. You may also contact Judith J. Gordon, assistant inspector
general for audit and evaluation, at (202) 482-2754.
U.S. Department of Commerce                                                                       Report OIG-19384

Office of Inspector General                                                                         November 2008




                                                    Contents


1. 	 Overcome the Setbacks Experienced in Reengineering Decennial 

     Processes, and Conduct a Successful 2010 Census ................................... 1 

       Program and contract mismanagement caused significant problems.... 2

       Organizational culture contributed to problems ..................................... 3

2. 	 Better Position the Department to Address Information 

     Security Risks ............................................................................................. 6 

       Joint OIG-Department plan, with focus on continuous monitoring of 

       security controls, is improving Commerce’s security status .................... 7

       Cyber Security Management and Assessment Tool should strengthen 

       continuous monitoring efforts .................................................................. 8

3. 	 Effectively Manage the Development and Acquisition of NOAA’s Two

     Environmental Satellites.......................................................................... 10 

       Continuing VIIRS problems jeopardize NPOESS mission................... 11 

       Oversight structure has not been an effective mechanism for decision 

       making ................................................................................................... 11

       NOAA and the Department need to follow accepted oversight 

       procedures for the GOES-R acquisition................................................. 12

       NOAA needs to work with congressional committees on

       GOES-R reporting .................................................................................. 12 

4. 	 Establish a Safety Culture at NIST ........................................................ 14 

       Spill exposed weaknesses in NIST’s safety management that must be 

       corrected .................................................................................................. 14

       NIST’s management structure has not supported a safety culture ....... 15

       NIST facilities must comply with safety requirements ......................... 16

5. 	 Ensure NTIA effectively carries out its responsibilities under the 

     Digital Television Transition and Public Safety Act ............................... 17 

       Converter Box Coupon Program is progressing with few problems, but 

       close oversight must be maintained ....................................................... 17

       Grantees may not be able to complete projects within the legislation’s 

       short funding time frame ....................................................................... 18

       NTIA must consider options for ensuring the program achieves its 

       objectives ................................................................................................. 19

U.S. Department of Commerce                                                                     Report OIG-19384

Office of Inspector General                                                                       November 2008




    Other Issues Requiring Significant Management Attention .................. 21 

      Weaknesses in the Department’s acquisition oversight and acquisition 

      workforce................................................................................................. 21

      USPTO’s long and growing patent processing times, and its financing 

      vulnerabilities ......................................................................................... 23 

      NOAA’s ability to conserve the nation’s fragile oceans and living marine

      resources while ensuring a vital U.S. commercial fishing industry ..... 24 

      BIS’ setbacks in modernizing its obsolete information technology 

      infrastructure to strengthen the dual-use export control system........... 26

Acronyms and Abbreviations ......................................................................... 27

U.S. Department of Commerce                                Final Report OIG-19384

Office of Inspector General                                        November 2008




1. Overcome the Setbacks Experienced in Reengineering Decennial
   Processes, and Conduct a Successful 2010 Census

The ability of the U.S. Census Bureau to successfully conduct its
constitutionally mandated decennial count of U.S. residents in 2010 is at
serious risk. After spending 8 years developing a completely new approach to
census-taking—one that was to automate major field operations—the bureau
scrapped plans for using handheld computer technology for the largest and
most expensive of these operations, known as nonresponse follow-up, because
of significant performance problems and the bureau’s loss of confidence in the
Field Data Collection Automation (FDCA) contractor. It will now conduct this
operation using paper and pencil, as it has done in previous censuses. The
inability of Census and its contractor to work together to produce a handheld
computer and related systems for field data collection as originally
envisioned, combined with major flaws in the bureau’s cost-estimating
methods and other issues, have added an estimated $2.2 billion to $3 billion
to the original $11.5 billion life-cycle cost estimate for the 2010 decennial.

The Department and the Census Bureau have taken significant actions
during the past year to address problems. These actions include extensive
changes to decennial management, improvements in program management
practices, and closer oversight of the decennial effort by the Department.
However, despite these changes, significant risks remain for the 2010
decennial. Whether the bureau can retool in time to conduct a reliable
census, even at this increased price tag, represents, in our view, the most
significant challenge facing the new Secretary of Commerce.

Census 2010 was to be the first high-tech count in the nation’s history, with
decennial employees using handheld computers to verify addresses through
global-positioning software, collect data from households that did not mail
back census questionnaires (i.e., nonresponse follow-up), and manage a
variety of information and tasks. The handheld computers were the
centerpiece of the strategy and other decennial operations were built around
or impacted by the decision to use them. Now nonresponse follow-up will
revert to the traditional paper and pencil operation it has always been. The
switch to paper processes will require additional field staff and support
personnel—which means more time to hire and train, and more dollars to do
so. And it means Census must modify its other plans and operations to
account for the change.

Continued problems related to the FDCA project and the late transition to
paper-based processes without extensive testing create an unprecedented
level of risk. An inaccurate population count will have unacceptable


                                      1

U.S. Department of Commerce                                Final Report OIG-19384

Office of Inspector General                                        November 2008




consequences for the nation: at stake is apportionment of the 435 seats in the
House of Representatives and equitable distribution of billions of dollars in
federal and state aid. Both GAO and OMB have designated the 2010 census
as a high-risk program and it is under intense scrutiny by Congress.

Program and contract mismanagement caused significant problems

The overarching explanation for the significant problems Census has
encountered to date is the failure of senior Census Bureau managers in place
at the time to anticipate the complex IT requirements involved in automating
the census. We reported numerous problems in the development and
acquisition of the handheld devices and related field automation earlier in
the decade. Census had originally intended to develop the handhelds in-house
and tested prototypes in both 2004 and 2006. The devices had serious
problems in both tests. These experiences should have better informed the
bureau’s efforts to define requirements.

The bureau decided too late in the decade to contract for automation of field
operations to meet ambitious fixed deadlines for the dress rehearsal tests
starting in 2007 and decennial operations starting in 2009. After contract
award, the bureau’s requirements remained in flux. As late as January
2008—nearly 2 years after contract award—Census finally delivered a first
draft of a complete, user-validated set of requirements for the handhelds and
supporting infrastructure. It had no contingency plan in the event the
handhelds proved unusable.

The problems experienced in developing the handhelds have led to
tremendous setbacks for numerous operations in addition to nonresponse
follow-up: plans for testing and enhancing the handhelds for address
canvassing—the only operation that will still use the devices—have been
severely compressed. Address canvassing will undergo its final operational
test over an 8-day period, rather than the 3 months originally allotted in the
plan for the retooled census. This operation is essential to, among other
things, successfully delivering questionnaires and giving temporary staff
accurate addresses and maps for nonresponse follow-up. Dress rehearsal
testing of the operation—which concluded in June 2007—revealed serious
technical problems. We question whether Census will have the time to
resolve issues arising from the 8-day test, scheduled for December, before the
start of the 2010 operation. Training of address canvassers for the live
operation commences in February 2009, leaving the bureau only a short
period of time to fix any problems identified in this final test.




                                      2

U.S. Department of Commerce                                 Final Report OIG-19384

Office of Inspector General                                         November 2008




Help desk operations—key to ensuring the handhelds function properly
during address canvassing—are just now in the process of being redesigned.
Census is also taking over the regional census center communications
infrastructure, which under the contractor has experienced numerous
problems that must be resolved to ensure a successful 2010 count.

Meanwhile, because of the inordinate attention and resources necessary to
address field automation problems, Census has been unable to address the
readiness of operations for enumerating some traditionally difficult groups
and settings, such as the homeless, military bases, and group quarters—it
dropped plans to test these operations from the 2008 dress rehearsal, which
means the actual decennial count will be the proving ground for these
operations. Enumeration procedures it previously tested—such as those
planned for American Indian reservations—showed almost no effect on
mitigating long-standing obstacles to producing an accurate count. Yet the
bureau has had no time to develop and test possible improvements.

Finally, the bureau must have a fingerprinting program in place prior to
hiring the estimated 1.3 million temporary workers needed for field
operations. Because the decision to fingerprint was made only recently,
Census faces significant risks in implementing this estimated $148 million
operation.

Organizational culture contributed to problems

The Census Bureau—particularly headquarters—is an insular organization
that eschews open dialog with outside parties and even its own regional
operations. As decennial census planning proceeded, the bureau minimized
the significance of its problems, withheld information, and was not
forthcoming with the Department, Congress, OIG, and other oversight
agencies about the problems it was experiencing. Perhaps the most egregious
example of the bureau’s insularity was its lack of transparency about the
FDCA problems, allowing them to persist to the point of crisis. It was not
until January 2, 2008, after a news report in Government Executive of a
leaked MITRE analysis raising numerous red flags, that the Department,
OMB, Congress, and other stakeholders became aware of the dire condition of
the program. Presented to the then-deputy Census director in late November
2007, the MITRE document concluded,

       FDCA is in serious trouble. It is not clear the system will
       meet Census’ operational needs and quality goals. The
       final cost is unpredictable. Immediate, significant changes
       are required to rescue the program. However, the risks


                                       3

U.S. Department of Commerce                                  Final Report OIG-19384

Office of Inspector General                                          November 2008




       are so large considering the available time that we
       recommend immediate development of contingency plans
       to revert to paper operations.

This was not MITRE’s first warning. It had briefed the deputy director about
the FDCA problems in June 2007. When this briefing appeared to stimulate
little action, MITRE prepared the November analysis. Less than 2 weeks
after the November warning, the then-bureau director testified to Congress
that the handheld computer was working well, and gave no indication of
MITRE’s concerns.

In the wake of the FDCA problems, the Secretary of Commerce announced
that management and oversight of the 2010 census would be strengthened
and deepened both at the bureau and the Department. He assigned several
members of the Department’s senior political leadership to work with the
bureau on a recovery plan, which has given the Secretary some measure of
influence over the plan and visibility into the bureau’s progress. The
upcoming transition of key departmental leadership positions necessarily
creates the risk of disrupting existing oversight efforts for the most critical
program for which the new Secretary will initially be accountable.

The Census Bureau prides itself on its “can do” attitude and considers tenure
through multiple decennial censuses a prerequisite for any senior decennial
position. Bureau staff views the decennial as so unique that there is little to
be learned from newcomers or external sources no matter how distinguished
or knowledgeable.

This vision has left the bureau generally unreceptive to new ways of doing
business. It has not kept pace with private sector advances in business
process improvement and lacks insight into how these advances can benefit
census operations. In deciding to use handhelds for decennial field
automation—viewed by the bureau as a huge operational transformation—
the bureau showed little regard or appreciation for the time and effort
involved in gaining buy-in for significant business process changes from
Census staff.

Leadership with private sector expertise is vital not only for improving
decennial management but also for reappraising the bureau’s other programs
and administrative operations. Although the bureau made personnel changes
after the FDCA crisis became public, it has not yet brought in external
management with expertise in successfully running complex programs and
system acquisitions or in implementing contemporary private sector
management methods. Both we and outside experts recommend such


                                        4

U.S. Department of Commerce                                  Final Report OIG-19384

Office of Inspector General                                          November 2008




experience as a necessary requirement for shoring up the bureau’s
management weaknesses and combating its insularity. Since the Census
director is a Presidential appointee, there is the prospect that the director
position will turn over again after the current director has been on the job for
slightly more than 1 year. The inevitable delay involved in nominating and
gaining confirmation of a new director means that the bureau will begin
major decennial operations without the benefit of significant leadership
continuity and management improvements. Given the major late-stage
changes to 2010 operations, having two short-time directors during the final
2 years of the decennial cycle, coupled with the long-term absence of proven
high-level management expertise, could create additional challenges the
bureau must be poised to address.

With the first major decennial operation (address canvassing) beginning
in early 2009, the new Secretary will have little opportunity to impact
planning for the 2010 decennial, although he or she will have responsibility
for its overall implementation. The new Secretary does have the opportunity
to impact planning for the 2020 census. We believe that applying the lessons
learned from the 2010 decennial to the planning and reengineering of the
2020 decennial should also be a high priority for the new Secretary.

For more information, view the documents below at www.oig.doc.gov:

Reports
•	 2010 Decennial Census: Dress Rehearsal of Address Canvassing Revealed
   Persistent Deficiencies in Approach to Updating the Master Address File
   (OSE-18599, October 2008)
•	 2010 Decennial Census: Census Should Further Refine Its Cost Estimate
   for Fingerprinting Temporary Staff (OIG-19058-1, August 2008)
•	 2010 Decennial Census: OIG Reviews Through the Decade Identify
   Significant Problems in Key Operations (OIG-19217, June 2008)
•	 2010 Census: Key Challenges to Enumerating American Indian
   Reservations Unresolved by 2006 Census Test (OSE-18027, September
   2007)
•	 Enumerating Group Quarters Continues to Pose Challenges (IPE-18046,
   October 2006)
•	 Valuable Learning Opportunities Were Missed in the 2006 Test of Address
   Canvassing (OIG-17524, March 2006)

In-Progress Reviews
•	 Audit of the Field Data Collection Automation Contract Type and Award
   Fee
•	 OIG Reviews of Decennial Census in Response to Secretarial Request


                                       5

U.S. Department of Commerce                                         Final Report OIG-19384

Office of Inspector General                                                 November 2008




2. Better Position the Department to Address Information Security
   Risks

As in many federal agencies, putting             What Is Certification & Accreditation
proper information security controls in                and Why Is It Important?

place has been an intractable problem       Certification is a comprehensive assessment of
                                            security controls implemented in a computer system.
at the Department of Commerce and a         It determines whether controls are implemented
long-standing item on OIG’s watch list.     correctly, operating as intended, and meeting the
Despite additional expenditures to          security requirements for the system. Through the
                                            formal assessment of controls, the certifier identifies
mitigate the problem, the Department        any vulnerabilities that have not been eliminated.
has reported information security as a      Accreditation is management’s formal authorization
material weakness every year since FY       to allow a system to operate and its explicit
2001.                                       acceptance of the risks posed by remaining
                                            vulnerabilities. Through accreditation, senior agency
                                            officials take responsibility for the security of
The Federal Information Security            systems they manage and for any adverse impacts
                                            should a breach in security occur.
Management Act (FISMA) requires
agencies to certify that their systems
and data are protected with adequate, functioning security controls before
authorizing (accrediting) a system to operate. The reason for the material
weakness at Commerce has been consistently inadequate certification and
accreditation (C&A): year after year our FISMA reviews have found
ineffective C&A processes that do not adequately identify and assess needed
controls and ultimately fail to assure that systems and data are protected.

Securing systems from cyber threats is clearly the most difficult piece of the
challenge, because these threats represent a moving target: they increase in
number and sophistication almost daily. And as agencies incorporate wireless
and other technologies to support their operations and workplace flexibilities,
they invite new risks that must be anticipated and mitigated.

To be effective in this environment, the Department’s IT security program
must be proactive and fluid, staffed by IT security professionals who have the
appropriate skills and experience to implement required security controls,
assess their effectiveness, and anticipate and respond to emerging threats.
They also need appropriate security clearances to effectively deal with
potential cyber attacks by hackers, terrorist groups, organized crime, and
nation-states. We have found IT security personnel lack adequate
understanding of the Department’s IT security policy, NIST standards and
guidance, and security technology, and therefore cannot appropriately apply
them. The Department cites lack of resources as a major impediment to
improving IT security.




                                       6

U.S. Department of Commerce                                Final Report OIG-19384

Office of Inspector General                                        November 2008




Commerce has had some notable security incidents that underscore the
potential for harm.

   •	 The Bureau of Industry and Security, which processes sensitive export
      license data, took one of its information systems off line in late 2006,
      after discovering it had been hacked, and the agency still has only
      limited Internet access. BIS reported that it reviewed firewall logs for
      the 8 months prior to detecting the intrusion, but could not determine
      how long the hackers were inside the system before their presence was
      discovered.

   •	 The Census Bureau was one of several federal agencies to report
      hundreds of lost laptops potentially containing sensitive data. We
      assessed whether the laptops had adequate security controls to prevent
      unauthorized access. We determined they did not, and in fact could be
      compromised with tools that were readily available on the Internet.
      Census has since implemented full-disk encryption on its laptops to
      protect sensitive information.

   •	 This past spring, U.S. authorities investigated media reports that a
      Commerce Department laptop carried on a foreign visit had been
      compromised and whether hackers could have obtained information to
      enable them to penetrate Commerce systems. Though the incident was
      not substantiated, the concern of wider access to Commerce systems
      reflects the core purpose and importance of effective C&A coupled with
      a dynamic IT security program: together they ensure controls to
      prevent such wider access are in place and constantly upgraded to
      mitigate new threats.

Joint OIG-Department plan, with focus on continuous monitoring of
security controls, is improving Commerce’s security status

We have been working with the Department to eliminate the material
weakness by the end of 2009 under a jointly developed plan that incorporates
realistic milestones and measurable steps for building consistent and
repeatable C&A practices. A key element of the strategy is continuous
monitoring of security controls. The National Institute of Standards and
Technology is updating its FISMA guidance to give greater emphasis to
continuous monitoring as part of C&A. Continuous monitoring requires
agencies to regularly assess and adjust their security controls to maintain or
improve protective measures on an ongoing basis.




                                      7

U.S. Department of Commerce                                  Final Report OIG-19384

Office of Inspector General                                          November 2008




Our FY 2008 FISMA reviews noted improvements: we looked at nine systems
and concluded that four of them (44 percent) were operating in compliance
with federal and Department requirements (compared with 33 percent in FY
2007). Only one of the four had used an acceptable C&A process at the time of
our review, but the remaining three showed subsequent improvements
because of rigorous continuous monitoring activities.

Our FY 2008 FISMA review also looked at two USPTO systems—one
operated by the agency and one operated by a contractor. USPTO, which
reports on its performance separately from the Department, first reported a
material weakness in information security in FY 2002 because of inadequate
C&A. With the exception of FY 2004 and FY 2005, USPTO has continued to
report the material weakness. Both of the systems we looked at this year had
deficient security plans, configuration settings, and security control
assessments. Therefore, we concluded the IT security material weakness
remains.

USPTO has initiated an effort to improve its C&As by having them verified
and validated by an independent party before making the authorization
decision. Also, USPTO has implemented a process to better document
security control assessments and results, and continues to develop and refine
a set of common security controls applicable to all of its systems. We
therefore expect to see improvements in the future.

Cyber Security Management and Assessment Tool should strengthen
continuous monitoring efforts

The Department has made progress toward implementing the Cyber Security
Assessment and Management (CSAM) tool—a software application developed
by the Department of Justice that allows users to take a 360-degree approach
to C&A—they can input system information as they begin the C&A process,
and, among other things, generate and implement a security plan that
complies with FISMA requirements, analyze security requirements, and
track resolution of vulnerabilities and the results of security control
monitoring. The systems we reviewed this year were certified and accredited
without the benefit of the tool. But once fully integrated, the tool should bring
greater consistency to the C&A process across all Commerce bureaus,
including USPTO, and give management greater visibility into it.




                                       8

U.S. Department of Commerce                             Final Report OIG-19384

Office of Inspector General                                     November 2008




For more information, view the documents below at www.oig.doc.gov:

Reports
•	 FY 2008 FISMA Assessment of NWS Telecommunication Gateway System
   (OSE-19000, September 2008)
•	 FY 2008 FISMA Assessment of BEA Estimation Information Technology
   System (OSE-19001, September 2008)
•	 FY 2008 FISMA Assessment of Census Wireless Data Communications
   General Support System (OSE-19163, September 2008)
•	 FY 2008 FISMA Assessment of Field Data Collection Automation System
   (OSE-19164, September 2008)
•	 FY 2008 FISMA Assessment of NMFS Science and Technology System
   (OSE-19165, September 2008)
•	 FY 2008 FISMA Assessment of NWS International Satellite
   Communications System (OSE-19166, September 2008)
•	 FY 2008 FISMA Assessment of NESDIS Satellite Environmental
   Processing System (OSE-19167, September 2008)
•	 FY 2008 FISMA Assessment of Landon IP Information System (OSE-
   19367, September 2008)
•	 FY 2008 FISMA Assessment of Enterprise Remote Access System (OSE-
   19368, September 2008)
•	 FY 2007 FISMA Assessment of the Network Operations Center (OSE-
   18688, September 2007)
•	 FY 2007 FISMA Assessment of Client Services General Support System
   (OSE-18690-1, September 2007)
•	 FY 2007 FISMA Assessment of AESDirect Major Application (OSE-18690-
   2, September 2007)
•	 FY 2007 FISMA Assessment of Core Network General Support System
   (OSE-18840, September 2007)
•	 FY 2007 FISMA Assessment of Patent Search System—Primary Search
   and Retrieval (OSE-18841-1, September 2007)
•	 FY 2007 FISMA Assessment of Project Performance Corporation General
   Support System (OSE-18841-2, September 2007)
•	 Progress Being Made in Certification and Accreditation Process, But
   Authorizing Officials Still Lack Adequate Decision-making Information
   (OSE-19019, September 2006)
•	 SARSAT’s E-Authentication Controls Do Not Provide Adequate Assurance
   of Users’ Identities (OSE-1820, September 2006)

In-Progress Review
•	 FY 2009 FISMA Assessment of the Bureau of Industry and Security’s IT
   Infrastructure System



                                    9

U.S. Department of Commerce                                           Final Report OIG-19384

Office of Inspector General                                                   November 2008




3. Effectively Manage the Development and Acquisition of NOAA’s
   Two Environmental Satellites

NOAA is modernizing its environmental monitoring capabilities, spending
billions of dollars on two satellite systems that provide critical data: the
National Polar-Orbiting Operational Environmental Satellite System
(NPOESS) and Geostationary Operational Environmental Satellite-R Series
(GOES-R). Space acquisitions like NPOESS and GOES-R are highly technical
and complex and have a history of cost overruns, schedule delays, and
performance failures. The costs and schedules of both of these systems have
significantly increased since the projects commenced. They therefore require
careful oversight to minimize any further disruption and to prevent any gaps
in satellite coverage—a situation that could have serious consequences for
the safety and security of the nation.

                     The $12.5 billion NPOESS project will provide continuous
                     weather and environmental data for longer term weather
                     forecasting and climate monitoring through the coming 2
                     decades.1 The initial project plan called for the purchase
                     of six satellites at a cost of $6.5 billion, with a first launch
                     in 2008. But problems with a key sensor—the
                     Visible/Infrared Imager Radiometer Suite (VIIRS)—were
                     a major contributor to the increase in estimated cost,
                     even as the number of satellites was reduced to four and
the first launch pushed back to 2013. Recent analysis indicates that the $12.5
billion estimate could substantially increase in the near future.

The $7.7 billion GOES-R2 system will offer an
uninterrupted flow of high-quality data for short-range
weather forecasting and warning, and climate research
through 2028. An inadequate acquisition and
management process contributed to underestimated
costs for GOES-R and planned satellite capabilities that
were too ambitious. As a result, the projected cost of GOES-R has increased
from $6.2 billion to $7.7 billion, a major sensor has been removed, and the
number of satellites to be purchased has decreased from four to two.3


1
  The cost of the NPOESS program is shared equally by NOAA and the Department of Defense.
2
  The GOES series of satellites have, since 1975, provided the United States with critical
meteorological data for weather observation, research, and forecasting. Satellites in
production are given letter designations, which are changed to numbers after reaching orbit.
3
  An option for two additional satellites is included in the contract.



                                             10 

U.S. Department of Commerce                                                  Final Report OIG-19384

Office of Inspector General                                                          November 2008




Reining in additional costs and delays in both programs requires very specific
action and vigilant oversight. For NPOESS, the three agencies developing the
system—NOAA, NASA, and the Department of Defense—must (1) control
and resolve the continuing problems with VIIRS, and (2) improve triagency
decision making.

For GOES-R, NOAA needs to (1) work closely with the Department to ensure
it follows best practices in overseeing the acquisition while awaiting
development of formal Commerce oversight polices and procedures, and
(2) work with Congress to update the baseline life-cycle cost estimate used in
its annual reporting on the satellite system.

Continuing VIIRS problems jeopardize NPOESS mission

Despite scaling back the program in 2007, NOAA reports continuing
problems with VIIRS development, among them that the subcontractor has
sacrificed quality to meet the schedule, failed to follow rigorous development
and test procedures, and still does not have a permanent project team. The
primary contractor for NPOESS has been unable to correct these problems.
So an integrated program office team will work on-site with the subcontractor
to help finish VIIRS development. An independent review team is
investigating alternatives in the event VIIRS cannot be built successfully. If
these problems are not resolved with some expediency, it could mean further
delay for the launch of a pilot mission to test the new VIIRS instrument and
may result in gaps in data coverage. Because NPOESS is the only source of
critical weather and environmental data, it is especially important that
VIIRS problems be resolved and congressional confidence in and support of
the program maintained.

Oversight structure has not been an effective mechanism for decision
making

As joint project sponsors, NOAA, NASA, and Defense have direct oversight
for the program through a triagency committee comprised of senior officials
from each agency, but the committee has limited decision-making authority.
For example, key acquisition documents initiated in June 2006 to formalize
fundamental aspects of NPOESS management, testing, and cost, schedule,
and performance baselines have not yet been finalized because their
acceptance must be coordinated at higher agency levels.4 NOAA is forming an
independent review team to assess, among other things, the effectiveness of

4
 The four key documents not yet signed are the NPOESS Tri-Agency Memorandum of Agreement,
Acquisition Program Baseline, Acquisition Strategy Report, and Test and Evaluation Master Plan.


                                                 11 

U.S. Department of Commerce                                        Final Report OIG-19384

Office of Inspector General                                                November 2008




the triagency management structure. The team plans to report preliminary
findings in January 2009. The challenge for NOAA is to gain consensus
among its partners on how to make the committee a responsive decision-
making body.

NOAA and the Department need to follow accepted oversight
procedures for the GOES-R acquisition

GOES-R is wholly funded by Commerce, though the satellites will be
developed and acquired jointly with NASA. The structure of the program has
introduced a new element of risk: NOAA now has the lead management role
over the entire program (ground and space segments)5 for the first time,
giving the Department direct oversight responsibility as well. Our evaluation
in 2007 found that significant weaknesses in oversight during earlier phases
of the program led to the cost increases and schedule delays. Because
GOES-R was not using an accepted life-cycle process, oversight officials were
left without sufficient decision-making information. To address this problem
we recommended, among other things, that the Department overhaul its
major systems acquisition policy and NOAA identify how NASA management
and oversight procedures would be followed for the entire program. NOAA
and the Department took several significant actions in response to our
review. NOAA finalized a GOES-R management control plan, which
describes how NASA procedures will be applied, the Secretary delegated
authority for key decisions to NOAA, and the Department has been working
on a new major systems acquisition policy. However, the policy may not be
ready before award of the GOES–R space and ground segment contracts in
December 2008 and May 2009. In the absence of a revised policy, NOAA
needs to work with the Department to develop effective interim oversight
procedures prior to the planned awards.

NOAA needs to work with congressional committees on GOES-R
reporting

The Mikulski Amendment to the 2008 Consolidated Appropriations Act
requires NOAA to notify Congress6 should GOES-R costs increase by
20 percent or more over the established baseline. However, the baseline used
in the amendment is the cost estimate reported in NOAA’s FY 2008
presidential budget request ($6.9 billion). At that point, too little was known
about the GOES-R program to develop a reliable estimate. Since that time,
5
 In prior NOAA-NASA satellite programs, NASA managed the space segment.
6Notification is to be made to the Senate Committee on Appropriations and Committee on
Commerce, Science, and Transportation; and the House Committee on Appropriations and
Committee on Science and Technology.


                                           12 

U.S. Department of Commerce                                 Final Report OIG-19384

Office of Inspector General                                         November 2008




the acquisition approach has been changed, the performance capabilities
have been redefined, and the design has been refined, which resulted in the
current $7.7 billion estimate. This projection is a more realistic and reliable
baseline: it was developed in close collaboration with NASA, with guidance
from a highly qualified independent review team, and with the benefit of an
independent cost estimate. Although the current estimate does not breach
the act’s 20 percent cost growth threshold, NOAA should work with Congress
to reestablish the baseline at the new, more realistic level.

For more information, view the documents below at www.oig.doc.gov:

Reports:
•	 Successful Oversight of GOES-R Requires Adherence to Accepted Satellite
   Acquisition Practices (OSE-18291, November 2007)
•	 Poor Management Oversight and Ineffective Incentives Leave NPOESS
   Program Well Over Budget and Behind Schedule (OIG-17794, May 2006)




                                      13 

U.S. Department of Commerce                                 Final Report OIG-19384

Office of Inspector General                                         November 2008




4. Establish a Safety Culture at NIST

A June 2008 plutonium spill at the National Institute of Standards and
Technology’s Boulder, Colorado, laboratory raised serious concerns about
NIST’s ability to perform state-of-the-art research with radioactive and other
dangerous materials while protecting the safety of workers and the
community at large.

The plutonium spill was one of several incidents reported at NIST labs in the
past few years that have revealed management flaws and a lax safety culture
at the agency. But it was by far the most serious in terms of the potential for
widespread harm.

Trace amounts of the material were subsequently found in the urine of
several lab employees, but fortunately at levels too low to be dangerous.
Moreover, small amounts of the material were discharged inappropriately
into a laboratory sink and into restroom sinks. There is no evidence yet that
any of the material reached the Boulder sewer system, but NIST has had to
close the lab for decontamination—a process that NIST estimates will cost
approximately $2.5 million with a scheduled completion date of April 2009.
The time and cost required to fix the spill’s underlying causes will likely be
much greater.

Spill exposed weaknesses in NIST’s safety management that must be
corrected

The plutonium spill prompted a series of reviews by independent health and
safety experts, the Department of Energy, and NIST’s Ionizing Radiation
Safety Committee, all of which shared a common finding—a commitment to
safety at NIST Boulder is seriously lacking.

The Department of Energy found, among other things, that NIST had not
established a safety management system or protocols. Safety roles and
responsibilities were poorly defined, and the labs did not have the staff
expertise to understand and analyze exposures to hazardous materials.

An independent reviewer noted that Boulder management does not consider
safety to be its responsibility, but rather that of internal health and safety
staff. And this staff had been told that safety must not interfere with
creativity. One manager conveyed his misplaced sense of responsibility
during an annual safety walk-through by talking on his cell phone rather
than paying attention to conditions in the lab.



                                      14 

U.S. Department of Commerce                                          Final Report OIG-19384

Office of Inspector General                                                  November 2008




In addition, the circumstances under which the spill occurred are evidence
that safety is not a core value: a guest researcher was allowed to work alone
with the plutonium after normal business hours even though he had no
training in handling radioactive materials.

NIST’s management structure has not supported a safety culture

In its FY 2006 annual report on NIST’s strategic direction, performance, and
policies, the Visiting Committee on Advanced Technology7 noted
inconsistencies in safety procedures across NIST laboratories, and stated that
“Safety is a leadership activity that senior NIST leadership must be actively
involved in.” In principle, NIST management is committed to safety. But as a
practical matter safety has not been a clearly delineated function within its
organizational structure, and this contributed to the numerous lapses that
occurred leading up to the spill.

The director’s position at Boulder had no line management authority for staff
at the campus. In effect, then, at the time of the spill, no one on-site had
overall management responsibility for the safety of the work being conducted
in Boulder or for managing the response to the incident. The then-director of
the Boulder campus put it simply: “No one was in charge.”

NIST Boulder had only recently received permission to work with plutonium.
There was no systematic, integrated management process for analyzing and
preparing for the risks associated with this new work, for strictly managing
the material once it arrived, for dedicating lab space to radioactive materials
research, for ensuring personnel were properly trained to work with the
plutonium, or for responding to related emergencies. Though NIST has issued
a number of safety protocols over the years, such as the Laboratory Safety
Manual and Safety Operation System, managers and staff at Boulder were
not involved in developing them, were generally unfamiliar with their
requirements, and often viewed them as voluntary guidelines. The lab was
even found to be potentially noncompliant with several required federal and
industry safety standards.

An analysis of Boulder safety staffing conducted by the on-site safety office
found that NIST would need 13 full-time workers to properly perform safety
functions it currently handles with only 5. At present, NIST addresses this
staffing deficiency by simply deferring many safety tasks and by requiring

7The Visiting Committee on Advanced Technology was established by the Omnibus Trade
and Competitiveness Act of 1988. The committee reviews and makes recommendations
regarding general policy for NIST, its organization, its budget, and its programs to the
Secretary of Commerce and Congress.


                                            15 

U.S. Department of Commerce                                  Final Report OIG-19384

Office of Inspector General                                          November 2008




staff to work significant amounts of overtime—which could cause employee
fatigue and indirectly result in more accidents.

NIST facilities must comply with safety requirements

The plutonium spill and the subsequent revelations regarding NIST’s lax
safety culture are particularly disturbing in light of the agency’s
international reputation as a world-class scientific organization. Yet rather
than modeling best practices, NIST’s lax approach to safety increases risks to
the agency and the greater community.

Two studies conducted by NIST have identified a backlog of more than
$500 million in facility maintenance and repair requirements. A 2004 study
found $458 million in deficiencies at NIST’s Gaithersburg campus and a 2008
study identified $48 million in deficiencies at Boulder. Many of the items
relate directly to safety. NIST noted that it should be investing at least $50
million to $70 million annually to bring its facilities to a “fair” condition and
stay ahead of further deterioration. According to the Department, NIST
received $32 million for facilities in FY 2008.

It is clear from the circumstances surrounding the plutonium incident and
subsequent revelations that, at a minimum, NIST must make safety a
primary concern at all organizational levels and strictly comply with all
federal requirements and industry standards. It must establish and enforce
stringent policies and procedures for handling hazardous materials and strict
lines of accountability for implementing them.

At the request of the Deputy Secretary, the Office of Inspector General is
reviewing safety at NIST, with a specific focus on the agency’s management
structure as it relates to safety, as well as its policies and procedures for
handling radioactive materials. We are examining NIST’s systems for
identifying safety resource requirements, allocating resources to safety, and
addressing safety requirements in planning and budgeting for its work.

For more information, view the documents below at www.oig.doc.gov:

In-Progress Reviews
•	    OIG Review of NIST Management Structure and Safety and Training
      Systems in Response to Deputy Secretary Request
•	    Joint OIG/Nuclear Regulatory Commission Investigation of NIST’s
      Compliance with its Special Nuclear Materials License




                                       16 

U.S. Department of Commerce                                Final Report OIG-19384

Office of Inspector General                                        November 2008




5. Ensure NTIA Effectively Carries Out Its Responsibilities Under
   the Digital Television Transition and Public Safety Act

The Digital Television Transition and Public Safety Act of 2005 assigned the
National Telecommunications and Information Administration responsibility
for implementing a $2.5 billion initiative for the conversion to digital
television and improvements to public safety communications. The act
authorizes NTIA to use $1.5 billion to support the nation’s February 2009
switch to all-digital broadcasting by offering coupons toward the purchase
price of converter boxes that will enable analog television viewers to receive
digital programming.

A primary purpose of the switch to digital television is to free up radio
frequencies for advanced wireless emergency communications at state and
local levels, thus improving the ability of first responders to communicate
with one another during emergencies. The act authorizes NTIA to provide
approximately $1 billion in grants for public safety interoperable
communications (PSIC) projects in all 50 states, the District of Columbia, and
the U.S. territories—a total of 56 entities. This is a significant undertaking
for NTIA, whose prior experience administering grants has been with two
small programs: the Public Telecommunications Facilities Program, whose
FY 2008 funding availability was just $16.8 million, and the discontinued
Technology Opportunities Program, which issued a total of $233 million in
grants during its 10-year span (1994-2004).

The authorizing legislation requires NTIA to coordinate with the Department
of Homeland Security in administering the PSIC program and set a statutory
deadline of September 30, 2010, to expend grant funds. Subsequent
legislation set a statutory deadline of September 30, 2007, for the award of
grants.

Converter Box Coupon Program is progressing with few problems, but
close oversight must be maintained

NTIA has made substantial progress in helping prepare television viewers for
the switch to digital broadcasting: in August 2007 it contracted with IBM to
provide certain services to implement the $1.5 billion Converter Box Coupon
Program. The program offers up to two $40 coupons per household to offset
the purchase price of the boxes, which will enable consumers who rely on
analog signals for television reception to receive digital broadcasts after
February 17, 2009. NTIA had issued more than 26 million coupons as of
September 30, 2008, and redeemed 10 million of them. Although television



                                      17 

U.S. Department of Commerce                                  Final Report OIG-19384

Office of Inspector General                                          November 2008




stations will cease analog broadcasting on February 17, consumers can
request coupons until March 31, 2009, or while supplies last.

Maintaining strict accountability for funds in a program of this type and size
requires careful oversight and strong internal controls to guard against
fraud, waste, and abuse among retailers and to ensure the program is
properly closed out by September 2009, as required by the act. Potential
fraud schemes include selling the free coupons to consumers, or retailer
redemption of coupons for converter boxes that were not provided. NTIA has
not yet discovered any egregious instances of waste, fraud, and abuse, but
has decertified 16 retailers for violating program rules.

As the program moves toward completion, NTIA should continue to update
and strengthen its internal controls to reflect evolving program requirements
and circumstances, such as recent program rule changes that make coupons
available to residents of nursing homes, intermediate care facilities, assisted
living facilities, and households that use a post office box for residential mail
delivery. Based on its own analysis, NTIA believes it is prepared to handle a
significant uptick in coupon demand as the transition date approaches.

Although administering the coupon program is NTIA’s primary role, the act
authorizes the agency to use up to $5 million for outreach and education to
ensure that consumers know about both the digital TV transition and the
coupons. NTIA has targeted geographic areas and demographic groups that
have the highest percentage of analog-only households. The outreach strategy
provides for intensified publicity at critical points in the conversion, such as
the approach of the February 17, 2009, switch and the March 31 deadline for
coupon requests. However, there are bound to be households that do not get
the message in time and find themselves without television reception on
February 17. Although the Federal Communications Commission (FCC) has
primary responsibility for consumer education and outreach, NTIA should
continue to work with stakeholders, including representatives of at-risk
groups, to ensure a smooth transition to digital television.

Grantees may not be able to complete projects within the legislation’s
short funding time frame

The PSIC program is a one-time grant opportunity to target specific funds
and resources toward improving the interoperability of local and state voice
and data communications. But grantees are moving slowly, and whether they
can complete their projects by the statutory deadline of September 30, 2010,
is questionable.



                                       18 

U.S. Department of Commerce                                      Final Report OIG-19384

Office of Inspector General                                              November 2008




As of September 2008, grantees had spent less than 1.5 percent of the
available $1 billion, which leaves them only 2 years to complete their projects
or lose funding. But many of the projects involve activities that could take
much longer: GAO found that acquiring and deploying interoperable
communications equipment and infrastructure in similar Homeland Security
grants programs was slowed by state-imposed legal and procurement
requirements.8 These could also impact the PSIC program, as well as other
considerations: for example, PSIC grantees may need to obtain FCC licenses
—a process that can take months—before they can erect communications
towers to support interoperability. Time must also be factored in for training
responders to use the systems once they are up and running. Under PSIC’s
authorizing statutes, money not spent within the 3-year term will be
returned to the Treasury.

In September and October 2008 we contacted 22 grantees, including 19 of the
20 receiving the largest grants. Only one of the 22 grantees stated that it
plans to acquire most of its interoperable communications equipment within
the next 6 months. Eight of the 22 stated that they are in the early stages of
planning their acquisitions. The other 13 will start acquiring most of their
interoperable communications equipment in late FY 2009 or possibly in the
beginning of FY 2010. Given all that must follow the purchase of
equipment—installation, operational testing, and training, at a minimum—
grantees who are still in the acquisition stage as late as FY 2010 face the
very real possibility of arriving at the program’s September 30 deadline with
partially completed projects but without funding to finish them out.

NTIA must consider options for ensuring the program achieves its
objectives

Part of the reason for the grantees’ slow start is the way the PSIC awards
process worked. Because of the September 30, 2007, award deadline imposed
by the Call Home Act of 2006, PSIC awards preceded approval of individual
project plans and release of funds. This was unlike other Commerce grants
programs, which award grants competitively, based on the merit of a project’s
proposal. As a result, many recipients spent the first year of the 3-year grant
period developing plans, obtaining their approval, and awaiting availability
of funds.



8U.S. Government Accountability Office, March 11, 2008. Homeland Security: DHS
Improved its Risk-Based Grant Programs’ Allocation and Management Methods, But
Measuring Programs’ Impact on National Capabilities Remains a Challenge, GAO-08-488T.
Washington, D.C.


                                          19 

U.S. Department of Commerce                                  Final Report OIG-19384

Office of Inspector General                                          November 2008




NTIA should expeditiously identify grantees that are at high risk of not
meeting the statutory deadline for completing their projects, give them the
technical assistance they need to accelerate the process, carefully monitor
their progress, and keep Congress informed of the PSIC program’s status
toward achieving its objectives. If any entities seem still unlikely to meet the
deadline, NTIA should work with Congress to extend it.

For more information, view the documents below at www.oig.doc.gov:

In-Progress Reviews
•	 NTIA Should Further Improve Digital-to-Analog Converter Box Coupon
   Program Internal Controls to Prevent Fraud, Waste, and Abuse
   (CAR-19004-1, draft October 2008, final estimated November 2008)
•	 First Annual Assessment of Public Safety Interoperable Communications
   Grants (DEN-19003, draft estimated November 2008, final estimated
   January 2009)
•	 Audits of Public Safety Interoperable Communications Grants for
   Arkansas, Louisiana, Pennsylvania, and Nevada.




                                       20 

U.S. Department of Commerce                                Final Report OIG-19384

Office of Inspector General                                        November 2008




Other Issues Requiring Significant Management Attention

Several other Commerce operations and activities present distinct challenges,
and their resolution is essential to the Department’s sound management and
mission success. The first—acquisition management—has ramifications
Department-wide. The remaining three—though agency-specific—have a
direct bearing on U.S. economic strength and competitiveness, environmental
protection, or national security.

Weaknesses in the Department’s Acquisition Oversight and
Acquisition Workforce

Acquisition and contract management has been a consistent watch list item
for inspectors general and GAO, as related government spending has
ballooned in recent years. Spending on contracts government-wide, for
example, has more than doubled since 2000—from $208 billion to $430 billion
in FY 2007—while the federal acquisition workforce has remained fairly
constant: roughly the same number of skilled professionals now oversee more
than twice as many federal contract dollars as they did 7 years ago, and the
projects they support have greatly increased in complexity and risk.

Shortfalls and failures in major systems acquisitions are all too common in
federal programs. And contracts of all sizes and complexity are at risk for
fraud and waste because of poor oversight and lax controls.

Over the next 2 years, the Department of Commerce will spend an average of
approximately $3 billion annually on goods and services. The 2010 decennial
census and two critical NOAA satellite systems will account for roughly a
third of these annual expenditures. All three of these programs have already
suffered significant cost overruns and schedule delays because of poor
acquisition management.

The Department does not have coherent policies to guide systems acquisition
or effective oversight mechanisms, and these failings were major contributors
to the problems we identified with NOAA’s GOES-R satellite program and
the Census Bureau’s Field Data Collection Automation contract. It also lacks
a sufficient amount of skilled contracting and project management
expertise—a problem all federal agencies are grappling with. Hiring and
retaining a skilled acquisition workforce has been difficult, and the
competition stiff. Commerce has a limited number of contracting specialists
to meet its multibillion-dollar workload. It has no reliable count of its
program and project managers or contracting officer’s technical



                                     21 

U.S. Department of Commerce                                 Final Report OIG-19384

Office of Inspector General                                         November 2008




representatives, although skilled professionals in these positions are also at a
premium.

The Department is working to address these problems, but the process is
slow and in its early stages. Commerce is strengthening acquisition and
contracting by updating its antiquated policies and procedures to promote
more effective planning, implementation, and oversight. It is also taking
steps to make better use of its oversight bodies—the Acquisition Review
Board and the Commerce Information Technology Review Board—and to
integrate their activities, to ensure acquisition plans are appropriate, and
programs and contracts are reviewed at key decision points in their life cycle.

But success in these efforts will not be enough to improve the Department’s
overall acquisition operations without commensurate success in hiring and
retaining a qualified acquisition workforce. The pool of applicants for these
jobs is not large, and the looming retirement of some 50 percent of the
current federal acquisition workforce over the next 10 years may well push
shortages beyond the critical point.

OMB, the Federal Acquisition Institute, and the Office of Personnel
Management recently launched the Federal Acquisition Intern Coalition to
attract interest in federal contracting among college students. The
Department needs a comprehensive human capital strategy that (1) taps into
such recruiting initiatives, (2) explicitly defines what acquisition skills and
competencies it needs and how they will evolve over the short- and long-term,
and (3) offers professional development and other incentives to attract and
keep qualified candidates.

For more information, view the documents below at www.oig.doc.gov:

Reports
•	 The Office of Acquisition Management Has Not Implemented New
   Contracting Policies in a Timely Manner (IPE-19045, June 2008)
•	 The National Data Buoy Center Should Improve Data Availability and
   Contracting Practices (IPE-18585, May 2008)
•	 Successful Oversight of GOES-R Requires Adherence to Accepted Satellite
   Acquisition Practices (OSE-18291, November 2007)

In-Progress Reviews
•	 Audit of the Field Data Collection Automation Contract Type and Award
   Fee




                                       22 

U.S. Department of Commerce                                 Final Report OIG-19384

Office of Inspector General                                         November 2008




USPTO’s Long and Growing Patent Processing Times, and Its
Financing Vulnerabilities

The efficiency with which the U.S. Patent and Trademark Office processes
patent applications has a direct bearing on how well it achieves its mission of
promoting U.S. competitiveness. Meeting the demand for new patents in a
timely manner has been a long-standing challenge for USPTO. Increases in
both the volume and complexity of patent applications have lengthened
application processing times and backlogs dramatically. In 2004, USPTO had
a patent backlog of nearly a half-million applications and average processing
times of 27 months. By 2007, processing times averaged nearly 32 months,
with wait times for communications-related patents as long as 43 months. As
of September 30, 2008, USPTO reported a backlog of 750,596 applications
and estimated that the backlog will exceed 860,000 by September 2011.
USPTO needs to reverse the upward trend and continue to implement
measures discussed in its 2007-2012 strategic plan that have a significant
impact on reducing the backlog, such as shortening application review times,
improving examiner error rates, and hiring, training, and retaining skilled
examiners.

USPTO’s unique financing structure also presents challenges. There is a
complex relationship between the number of patent applications filed, the
size of the application backlog, the number of patents issued, and the fees
USPTO collects in connection with the patent process. The agency uses fees
collected today to pay for patent applications filed and examined in prior
years. With the backlog growing, processing times increasing, and the
number of patents issued flattening, this method of financing could become
increasingly risky. The current model for financing USPTO’s critical mission
warrants attention to ensure that it will continue to provide sufficient
funding to process all backlogged applications as well as any newly filed.

For more information, view the document below at www.oig.doc.gov:

In-Progress Reviews
• Audit of USPTO’s Quality Assurance Process




                                      23 

U.S. Department of Commerce                                Final Report OIG-19384

Office of Inspector General                                        November 2008




NOAA’s Ability to Conserve the Nation’s Fragile Oceans and Living
Marine Resources While Ensuring a Vital U.S. Commercial Fishing
Industry

According to NOAA, 3.5 million square miles of our coastal and deep ocean
waters and the Great Lakes support over 28 million jobs—one of every six—
in the United States, and the value of the U.S. ocean economy tops
$115 billion. But these economic benefits come at great cost as the health of
our oceans and coastal ecosystems continues to decline in the face of
increasing coastal development, pollution, overfishing, and the destructive
impact of invasive species.

Charged with maintaining and improving the viability of marine and coastal
ecosystems while supporting global marine commerce and transportation,
NOAA manages a significant portion of the federal government’s investment
in living marine resources. It faces difficult challenges in promoting the
health of these resources while ensuring they sustain the vital economic
benefits we derive from them.

In January 2007, the President signed the reauthorized Magnuson-Stevens
Fishery Conservation and Management Act, which requires annual catch
limits, an end to overfishing by 2011, and better integration of fishery
management planning with national environmental review procedures to
ensure the environmental impacts of any significant ocean activity under
consideration are thoroughly vetted. The challenge for NOAA will be to
implement these new requirements in a manner that improves the status of
our marine resources without undermining the health of the U.S. fishing
industry. To fulfill its mandates for living marine resources, NOAA also
needs to take action to rebuild populations of protected species, conserve
important habitats, and undertake the science programs necessary to
improve its understanding of complex marine ecosystems.

For more information, view the documents below at www.oig.doc.gov:

Reports
•	 National Marine Sanctuary Program Protects Certain Resources, But
   Further Actions Could Increase Protection (IPE-18591, February 2008)
•	 NOAA’s Management of the Joint Enforcement Agreement Program
   Needs to Be Strengthened (IPE-19050-1, September 2008)




                                      24 

U.S. Department of Commerce                             Final Report OIG-19384

Office of Inspector General                                     November 2008




In-Progress Reviews
•	 Audit of NOAA’s Direct Loan Program
•	 Review of Allegations that NMFS’ Northeast Region Is Not Using the Best
   Available Science in Management Decisions




                                    25 

U.S. Department of Commerce                                Final Report OIG-19384

Office of Inspector General                                        November 2008




BIS’ Setbacks in Modernizing Its Obsolete Information Technology
Infrastructure to Strengthen the Dual-Use Export Control System

In January 2007, GAO added the Bureau of Industry and Security’s dual-use
export control system to its government-wide high-risk list. One of the key
challenges facing BIS in ensuring that the dual-use export control system is
properly equipped to advance U.S. national security, foreign policy, and
economic interests is the replacement of its obsolete Export Control
Automated Support System (ECASS). BIS’ core export administration and
enforcement business processes are directly supported by ECASS.
Approximately 450 federal staff and 28,000 exporters currently use the
system. However, the database structure—originally deployed in 1984—is
complex and no longer supported by the technology industry. The effort to
modernize ECASS began in 1996, but the project has been underfunded and
beset by technical problems and schedule slips that current management has
been attempting to address in a budget-constrained environment.

The current projected completion date for the ECASS modernization is
FY 2014. Based on our interviews, the total funding requirements for ECASS
modernization are not clearly established. BIS must provide a comprehensive
plan for what is required to modernize ECASS, including how much it will
cost and how it will avoid the management and technical problems
experienced in past modernization attempts.

Enhancing the performance of ECASS and ensuring continued operation of
an effective licensing information system are far too important to postpone
any longer. BIS must demonstrate that it has a modernization strategy and
plan in place to convincingly make the case for increased funding, or develop
a plan to implement its ECASS modernization effort with existing resources
(i.e., reallocate existing funding).

For more information, view the documents below at www.oig.doc.gov:

Reports
•	 Annual Follow-Up Report on Previous Export Control Recommendations,
   as Mandated by the National Defense Authorization Act for Fiscal Year
   2000, as Amended (IPE-18546, March 2007)
•	 BIS Needs to Strengthen Its ECASS Modernization Efforts to Ensure
   Long-Term Success of the Project (IPE-14270, February 2002)




                                      26 

U.S. Department of Commerce                                Final Report OIG-19384

Office of Inspector General                                        November 2008




                         Acronyms and Abbreviations

BIS           Bureau of Industry and Security
BEA           Bureau of Economic Analysis
C&A           Certification and Accreditation
CSAM          Cyber Security Assessment and Management
ECASS         Export Control Automated Support System
GAO           Government Accountability Office
GOES-R        Geostationary Operational Environmental Satellite-R Series
FCC           Federal Communications Commission
FDCA          Field Data Collection Automation
FISMA         Federal Information Security Management Act
NESDIS        National Environmental Satellite, Data, and Information
                      Service
NIST          National Institute of Standards and Technology
NOAA          National Oceanic and Atmospheric Administration
NMFS          National Marine Fisheries Service
NPOESS        National Polar-Orbiting Operational
                      Environmental Satellite System
NTIA          National Telecommunications and Information Administration
NWS           National Weather Service
OMB           Office of Management and Budget
PSIC          Public Safety Interoperable Communications
SARSAT        Search and Rescue Satellite-aided Tracking
USPTO         United States Patent and Trademark Office
VIIRS         Visible/Infrared Imager Radiometer Suite




                                       27 

